         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Accountability and Control of Explosives
at Lawrence Livermore National
Laboratory's High Explosives
Applications Facility




INS-O-13-06                     September 2013
                                  Department of Energy
                                     Washington, DC 20585

                                        September 30, 2013


MEMORANDUM FOR THE MANAGER, LIVERMORE FIELD OFFICE



FROM:                     Sandra D. Bruce
                          Assistant Inspector General
                             for Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "Accountability and Control of
                          Explosives at the Lawrence Livermore National Laboratory's High
                          Explosives Applications Facility"

BACKGROUND

The High Explosives Applications Facility (HEAF) is a state-of-the-art explosives research
facility located on-site at the Lawrence Livermore National Laboratory (Livermore). Livermore
is managed and operated by Lawrence Livermore National Security, LLC, for the National
Nuclear Security Administration, and the Livermore Field Office is responsible for administering
the contract.

The HEAF became operational in 1990 and was designed specifically to safely integrate the
operations of synthesis, formulation, and explosives testing in a single, synergistic facility. The
explosive operations area is confined to the lower level of the 3-story building and has 56
individual explosive workrooms, 7 fully contained explosive firing chambers, and an indoor
explosive storage magazine vault. The workrooms have an explosive storage capacity that
ranges from a few grams to a maximum of 10 kilograms (22 pounds).

The Office of Inspector General received a complaint alleging weaknesses with the controls over
physical access to explosive material, as well as weaknesses with explosive inventory control
and accountability in the HEAF explosive operations area. We initiated this inspection to
determine the facts and circumstances surrounding the allegations.

RESULTS OF INSPECTION

We substantiated the allegations regarding weaknesses with controls over access and inventory
of explosive materials at HEAF. Specifically, we found that:

   •   Individuals at Livermore with high-level security clearances had the potential to access
       the HEAF explosive operations area even though they lacked specific authorization
                                                2


       and/or had not received required safety training. Further, some cleared personnel had
       been granted unescorted access to enter the HEAF explosive operations area, an area that
       permitted direct access to explosives workrooms, despite the fact that they did not have
       an official need or the additional training required for unescorted access into the
       workrooms.

   •   Livermore's Safety Access Training, a training requirement for unescorted access to
       HEAF's explosive operations area, did not adequately address the requirements for
       unescorted access to the facility's explosive workrooms.

   •   A unified perpetual system of records capable of tracking and accounting for explosives
       acquired, stored, and expended at HEAF from acquisition to disposition did not exist.

The issues identified in this report regarding potential unauthorized access occurred, in part,
because officials did not adequately consider the risks associated with access to the facility and
the increased potential for theft or diversion of explosives. For example, we learned that the
badge reader at the HEAF rear entry gate was modified to accommodate construction activities
that had been taking place in that area of the facility. Livermore officials did not recognize the
impact of such a decision; however, when we notified Livermore Field Office officials about the
rear entry gate badge reader, the issue was immediately corrected. It also appeared that officials
may not have fully considered the security risk associated with the open access design of the
facility. According to HEAF officials, the facility has a unique safety design — the absence of
doors in most of the explosive workrooms — therefore, it was difficult to limit physical access.

The weaknesses identified with training occurred because the HEAF Safety Plan requirement
related to unescorted workroom access was not fully incorporated into the Safety Access
Training module. New employees or individuals who only periodically accessed the explosive
operations area were not required to read the HEAF Safety Plan and had to rely on the
information presented in the Safety Access Training. These individuals may not have been
aware that the HEAF Safety Plan administratively limited access to the workrooms to explosive
handlers and explosive support workers who had a preapproved need for the access and the
proper training. A HEAF official we interviewed was not aware that the training was confusing
and that it did not clearly address the requirements for unescorted access to HEAF's explosive
workrooms. Therefore, there was an increased safety risk if individuals mistakenly entered
workrooms where explosives were often sitting on workbenches in plain view, even if explosive
handlers were present.

In addition, the inventory controls for explosives within HEAF primarily focused on safety, and
not tracking and accountability of high-risk personal property such as explosives from
acquisition to disposition. HEAF officials told us that explosive operations often involved very
small quantities of explosives; therefore, having to account for such small amounts would be
time consuming and could adversely affect operational efficiency. HEAF officials, however, had
not specifically evaluated the risk of loss of explosives associated with the lack of a perpetual
inventory system.
                                                3


While our review did not identify any incidents involving loss, misuse, or theft of explosive
materials, the weaknesses identified regarding access, training, and inventory controls could
increase the potential for theft or diversion of explosive materials at HEAF.

In addition, while we did not identify any previous safety issues, unauthorized access of
personnel without the required Safety Access Training or specialized explosive training could
increase the opportunity for safety incidents. Accordingly, we made a number of
recommendations designed to improve the controls over access and inventory of explosive
materials at HEAF.

MANAGEMENT REACTION

Management generally agreed with the report's findings and recommendations. As appropriate,
we modified our report to address management's comments. Management comments are more
fully discussed in the body of our report.

Management's formal comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Acting Administrator, National Nuclear Security Administration
      Chief of Staff
REPORT ON ACCOUNTABILITY AND CONTROL OF EXPLOSIVES AT
THE LAWRENCE LIVERMORE NATIONAL LABORATORY’S HIGH
EXPLOSIVES APPLICATIONS FACILITY

TABLE OF
CONTENTS


Accountability and Control of Explosives

Details of Finding .......................................................................................................................... 1

Recommendations .......................................................................................................................... 5

Management and Inspector Comments .......................................................................................... 6


Appendices

1.    Objective, Scope and Methodology ....................................................................................... 7

2.    Prior Reports........................................................................................................................... 8

3.    Management Comments ......................................................................................................... 9
ACCOUNTABILITY AND CONTROL OF EXPLOSIVES AT THE
LAWRENCE LIVERMORE NATIONAL LABORATORY’S HIGH
EXPLOSIVES APPLICATIONS FACILITY

ACCOUNTABILITY AND CONTROL OF EXPLOSIVES

The Office of Inspector General received a complaint alleging weaknesses with the controls over
physical access to explosive material, as well as weaknesses with explosive inventory control
and accountability in the Lawrence Livermore National Laboratory's (Livermore) High
Explosives Applications Facility (HEAF) explosive operations area.

The HEAF is a three-story building with an explosive operations area confined to the lower level
of the facility. This area is comprised of 56 individual workrooms that varied in maximum
storage capacity from a few grams to 10 kilograms (22 pounds) of explosives. A segregated
second floor is used for administrative purposes, with the third floor reserved for building
mechanical support equipment and functions. Because of the inherently dangerous nature of
explosives, ensuring strong and effective access controls, safety training, and accountability are
critical to protecting Livermore personnel and infrastructure.

                      Access Controls for the HEAF Explosive Operations Area

Our inspection revealed that individuals with a Livermore site activated high-level security
badge (L or Q levels) had the potential to access HEAF explosive operations area without proper
authorization or the required safety training. Further, some cleared individuals had been granted
unescorted access to enter this operations area but did not have an official need or the required
training necessary to access the explosive workrooms.

Department of Energy (Department) Standard DOE-STD-1212-2012, Explosives Safety indicated
that access control procedures should be established for entry to all explosives areas, and that
only personnel needed for hazardous operations should be allowed in hazardous locations. 1 In
this regard, the HEAF Safety Plan required that all individuals complete DT2017-W Safety
Access Training prior to being granted unescorted access to the explosive operations area. In
addition, under the Safety Plan, unescorted access into the explosive workrooms required a
preapproved need, along with specialized explosive handler or support worker training.

Unescorted Access

Contrary to the HEAF Safety Plan, our testing of security access controls revealed that
configuration of the badge reader located at the facility's rear vehicle entry gate permitted access
to all L or Q cleared individuals at Livermore. Also, we observed that a rear door leading
directly to the explosives operations area and into workrooms where explosives were present was
unlocked during daytime hours. Therefore, individuals with access through the vehicle entry

1
 During the field work of this inspection, Department Manual 440.1-1A - PANTEX/LLNL Version, DOE Explosive
Safety Manual, was still in Livermore's Management and Operating contract. However, Department Manual 440.1-
1A has been replaced by Department Standard DOE-STD-1212-2012, Explosives Safety, and in February 2013,
DOE-STD-1212-2012 was incorporated into Livermore's Management and Operating contract. We noted that the
explosive operation criteria referenced in this report were identical in both the Department Manual 440.1-1A -
PANTEX/LLNL Version and DOE-STD-1212-2012.
______________________________________________________________________
Page 1                                                  Details of Finding
______________________________________________________________________

gate also had direct access into this operations area. HEAF officials informed us that initially the
badge reader at the rear entry gate had been programmed to allow entry only to those individuals
who had received the required safety training and were permitted unescorted access. However,
the access controls were changed to accommodate construction activities taking place in that
area. This change permitted all cleared individuals at Livermore access to the explosive
operations area. These issues occurred, in part, because officials did not adequately consider the
additional risks associated with changing the badge reader for rear access to the facility, and the
increased potential for theft or diversion of explosives.

Further, we observed that there was no sign on the rear entry gate to provide notice that
unescorted access to HEAF was prohibited unless individuals had completed the specific Safety
Access Training identified in the HEAF Safety Plan. HEAF Officials did not see the necessity
for posting a training notice sign until this matter was brought to their attention. During our
inspection, we notified Livermore Field Office officials about the issue regarding the entry gate
badge reader and the lack of a training notice sign, and both conditions were immediately
corrected.

Authorized Unescorted Access to HEAF

We also determined that access to HEAF was not appropriately restricted to only those
individuals with a direct and specific mission need. Specifically, we noted that nearly 700
individuals with L or Q clearances who had completed the Safety Access Training were
permitted unescorted access to the facility's explosive operations area. However, only 200 had a
preapproved need and had successfully completed the Explosive Handler/Explosive Support
Person training required for unescorted access into the workrooms. Unfettered access is an
overarching concern due to the open floor design and lack of doors segregating the workrooms.
Specifically, because the majority of the workrooms stored explosives in plain view and were not
physically secured, individuals entering the facility could have accessed explosive material
directly. The only physical security to most of the workrooms was a removable plastic chain
placed across the entryway with an attached hazardous operations sign warning that individuals
should not enter without permission.

HEAF officials told us that the 500 individuals who did not have the preapproved need or proper
training to enter the explosive workrooms held positions in areas such as protective force,
maintenance, the fire department and administrative support. As such, these individuals may
only have required periodic access to the explosive operations area, and may not have the need
for unescorted access into the workrooms. In addition, HEAF officials indicated that one of the
main reasons that most of the workrooms did not have doors to prevent unauthorized entry was
due to a safety design. These officials explained that the explosive operations area, to include
the workrooms, were specifically engineered and constructed to withstand theoretical explosive
forces based on the maximum allowable inventory of explosives. The officials also told us that
any physical changes to the structure of the explosive operations area, to include adding doors,
could impact safety and would, therefore, require in-depth engineering studies before any
changes could be made. However, it appears that officials may not have fully considered the
increased access risks associated with the open design of the facility.

______________________________________________________________________
Page 2                                                  Details of Finding
______________________________________________________________________

While we are not questioning the architectural design of HEAF, we believe that adherence to
specific controls for entering the facility is necessary to ensure the safety, control and
accountability of explosives. Therefore, it is important that all individuals are made fully aware
of the specialized safety training requirements for entry into the explosive operations area.
Further, while we did not identify any previous safety issues, unauthorized access of personnel
without the required Safety Access Training or specialized explosive training could increase the
risk of safety and/or security incidents.

                             Safety Training for Unescorted Access

We found that the HEAF's Safety Access Training did not adequately articulate the requirements
for unescorted access to the facility's 56 explosive workrooms. The HEAF Safety Plan clearly
stipulates that only explosive handlers and explosive support workers are permitted unescorted
access to the workrooms. However, our assessment of the Safety Access Training module
identified confusing information regarding unescorted access to HEAF's explosive workrooms.
For example, slide 14 of the training module stated that the first person to enter and the last
person to leave an explosives workroom must be a qualified explosives handler. However, slide
29 indicated that upon completion of the course, non-resident individuals would be granted
unescorted access during normal business hours to the first floor where the explosive operations
workrooms are located. Slide 14 and slide 29 appeared to be contradictory and presented those
taking the training with a mixed message regarding permissible access to the explosive work
rooms. We were unable to locate any reference in the training module that clearly indicated that
only explosive handlers and explosive support workers had unescorted access to the workrooms.
During our inspection we noted that HEAF officials were not aware that the training was
confusing and that it did not clearly address the requirements for unescorted access to the
explosive workrooms.

The weaknesses identified with the training occurred because the HEAF Safety Plan's
requirement related to unescorted workroom access was not fully incorporated into the Safety
Access Training module. New employees or individuals who only periodically access the
explosive operations area were not required to read the HEAF Safety Plan and had to rely on the
information presented in the Safety Access Training. These individuals may not have been
aware that the HEAF Safety Plan administratively limits access to the workrooms to explosive
handlers and explosive support workers who had a preapproved need for the access and the
proper training. Therefore, there was an increased risk to safety if these individuals mistakenly
enter the workrooms where explosives were often sitting on workbenches in plain view, even if
explosive handlers were in the rooms.

                           Accountability and Inventory of Explosives

We found that HEAF did not have a unified perpetual system of records capable of tracking and
accounting for explosives from acquisition to disposition. As stipulated by Department
Standard, Explosives Safety, a verifiable system should be established to control the amount of
explosives present in an explosives facility. In addition, Department Order 580.1A, Department
of Energy Personal Property Management Program, specifically defines explosives as
accountable "High Risk Personal Property," and stipulates that accountable property records
______________________________________________________________________
Page 3                                                  Details of Finding
______________________________________________________________________

must be managed and maintained current in a property management system of records from
inception to formal disposition and removal from the Department's inventory. 2 Further, the
Order requires that organizations with approved use of firearms, ammunition, pyrotechnics, and
explosives, and their associated components, must have processes in place to ensure the safe
handling, storage, inventory control, and maintenance of this High Risk Personal Property. In
addition, Department Order 580.1A indicates that physical inventories serve to "validate"
accountable property record accuracy.

We determined that HEAF had what appeared to be a verifiable system of records for explosives
it received, and for explosives placed into and removed from the indoor explosive magazine
vault. However, once explosives were taken to the workrooms, the system of records used in
those workrooms to account for and track the use of explosives was inconsistent, lacked the
capacity to track explosives from workroom to workroom, and did not provide a consistent
record of final disposition. Specifically, most explosive workrooms had an erasable white
marker board at the entrance as the primary method to account for explosives in the workrooms.
For safety purposes, the HEAF Safety Plan required explosive handlers to use the white boards
to annotate the type and quantity of explosives that were brought in and out of the rooms to
prevent the accumulation of unsafe amounts of explosives.

HEAF officials told us that the values on the white boards constantly changed because
explosives were brought in and out of the rooms on a routine basis. Officials also stated that
they conducted white board audits approximately twice a year in which the total amounts of
explosives in the rooms were measured and compared against the "current" amounts listed on the
white boards. However, officials indicated they did not conduct acquisition to disposition
inventories to validate the workrooms' white board records. Some of the explosive operations
workroom personnel we spoke with indicated that they could "probably" account for most of the
recently acquired explosives in their work area by simply asking coworkers about the disposition
of the explosives. Nonetheless, the majority of these personnel told us that it would be difficult
to conduct historical explosive inventories because there was no record system in place that
tracked and accounted for explosives from acquisition to disposition.

In addition, HEAF explosive operations workroom personnel told us that, in many cases, the
final disposition of explosives was not documented or verified. For example, explosive
operations personnel told us that when explosives were detonated in one of the explosive
chambers, a "shot form" was completed, documenting information such as the type and amount
of explosives used. However, no information was recorded to show the origin of the explosive.
Upon completion of the experiment, the amount and type of explosives detonated were erased
from the workroom white board where the explosive was last recorded.



2
  Even though Department Order 580.1A became efffective in March 2012, it was not incorporated into Livermore's
Management and Operating Contract until June 2013. However, Department Order 580.1, Department of Energy
Personal Property Management Program, Title 41 Code of Federal Regulations 109, Department of Energy
Property Management Regulations, and Title 48 Code of Federal Regulations 970.5245-1, Property, were in
Livermore's contract at the time and together provide the same general guidance as Department Order 580.1A
regarding the control and accountability of high risk and sensitive property.
______________________________________________________________________
Page 4                                                  Details of Finding
______________________________________________________________________

While the individual white board record system in the workrooms was the primary method used
to track explosives within each workroom, we learned of two explosive inventory database
systems developed by explosive handlers that were in operation in two separate explosive
workrooms. We were given a presentation on one of the systems that included a barcode printer
and scanner. Although we did not test the system, HEAF officials demonstrated that the system
had the capability to document and account for explosives from the time explosives entered the
room to final disposition within that room. This system, however, lost track of explosives that
were moved to other workrooms. We also learned that, in addition to the white boards, several
other workrooms tracked explosives via paper logs or spreadsheets, but still did not account for
explosives from acquisition to disposition.

HEAF officials told us that because explosive operations often involved very small quantities of
explosives, having to account for such small amounts could negatively affect operational
efficiency. However, we noted that although Department Order 580.1A allows the inventory
process to be aligned with risk assessments, HEAF officials had not specifically evaluated the
risk of loss of explosives associated with the lack of a unified perpetual inventory system.
Additionally, we observed that the database tracking system already in operation in one of the
workrooms appeared to improve the accountability of explosives without imposing a negative
impact on workroom operational efficiency.

While our review did not identify any incidents involving loss, misuse, or theft of explosive
materials, the weaknesses identified with regard to inventory controls, coupled with the
weaknesses in access control and training could increase the potential for theft or diversion of
explosive materials at HEAF. Accordingly, we made a number of recommendations designed to
improve the controls over access and inventory of explosive materials at HEAF.

RECOMMENDATIONS

To address the issues identified during our inspection, we recommend that the Manager,
Livermore Field Office ensure that:

   1. The HEAF access control systems adequately prevent people without the preapproved
      need or proper training from entering the explosive workrooms;

   2. The requirements of the HEAF Safety Plan are adequately incorporated into the Safety
      Access Training module so that individuals taking the training clearly understand that
      only explosive handlers and explosive support workers have unescorted access to the
      explosive workrooms; and

   3. Lawrence Livermore National Laboratory develops and implements a risk-based
      perpetual system of records and a supporting inventory system within HEAF that is
      capable of tracking and accounting for explosives from inception to formal disposition,
      consistent with Department Order 580.1A.




______________________________________________________________________
Page 5                                                 Recommendations
______________________________________________________________________


MANAGEMENT COMMENTS

Management generally agreed with the report's findings and recommendations and suggested
changes in several sections of the report. We considered the suggestions and made changes we
deemed appropriate. Management comments are included in Appendix 3.

INSPECTOR COMMENTS

Management's comments and planned corrective actions are generally responsive to our report
findings and recommendations. However, with regard to Recommendation 1, management took
the position that "access control systems" as referenced in the recommendation are used to
enforce security requirements, not safety requirements. Management suggested we change the
wording of Recommendation 1 to read, "Ensure that HEAF adequately prevents people without
the preapproved safety training from entering the explosive workrooms." Nevertheless, our
position throughout the report has been that limiting access to the workrooms to only those who
have a pre-approved need and the proper training applies "both" to the safety of individuals and
to the security of explosives. Therefore, the wording of Recommendation 1 was not changed.

While management concurred in principle with Recommendation 3 and indicated that it will
ensure there is an inventory system within HEAF that is capable of tracking and accounting for
explosives, management comments indicated that Livermore was not contractually bound by
Department Order 580.1A at the time of our inspection as it had not been incorporated into
Livermore's Management and Operating contract. This is technically true, and our report states
that Department Order 580.1A was not incorporated into Livermore's Management and
Operating Contract until June 2013. However, our report identified weaknesses with regard to
the tracking and accounting for explosives within the HEAF that existed at the time of our
inspection. Recommendation 3 addresses the cause of these weaknesses and the recommended
action is based on requirements that were in Livermore's contract at that time. Specifically,
Department Order 580.1, Department of Energy Personal Property Management Program, Title
41 Code of Federal Regulations 109, Department of Energy Property Management Regulations,
and Title 48 Code of Federal Regulations 970.5245-1, Property, had been incorporated into the
Livermore contract, and Livermore was contractually bound by these requirements. Together,
these regulations provided guidance similar to Department Order 580.1A regarding a perpetual
system of records and a supporting inventory system.

Finally, at the end of our inspection we noted that the warning signs hanging across the entrance
to the HEAF explosive workrooms had been changed. The signs now warn that only explosive
handlers and explosive support workers are allowed unescorted access to the workrooms. We
believe this is a positive change in response to our inspection.




______________________________________________________________________
Page 6                                 Management and Inspector Comments
Appendix 1
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding the
allegation that there were weaknesses with controls over physical access to explosive material, as
well as weaknesses with explosive inventory control and accountability in the High Explosives
Applications Facility (HEAF) explosive operations area.

SCOPE

The inspection fieldwork was conducted at the Lawrence Livermore National Laboratory
(Livermore) in Livermore, California from September 2012 to September 2013. The focus of the
inspection was the explosives operations area at the HEAF.

METHODOLOGY

To accomplish the inspection objectives we:

   •   Interviewed key individuals that provided information about HEAF and the explosive
       operations area within HEAF;

   •   Examined HEAF's internal and external physical access controls;

   •   Conducted tours of the HEAF explosives operations area;

   •   Obtained and reviewed Livermore and HEAF internal documents, policies and
       procedures; and

   •   Reviewed applicable Department regulations.

We conducted this inspection in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our inspection objective. The inspection included tests of controls and compliance with laws
and regulations to the extent necessary to satisfy the objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our inspection. Finally, we relied on computer-processed data to some extent to
satisfy our inspection objective. We confirmed the validity of such data, as appropriate, by
conducting interviews and reviewing source documents.

The exit conference was waived by National Nuclear Security Administration management.



______________________________________________________________________
Page 7                                    Objective, Scope and Methodology
Appendix 2
                                        PRIOR REPORTS

•   Inspection Report on Management of Explosives at Selected Department Sites (INS-O-12-02,
    July 2012). The report concluded that problems existed with handling and storing explosives
    at each of the four contractor-operated sites visited, potentially increasing the risk of harm to
    personnel and infrastructure. For instance, contrary to established practice designed to
    minimize the impact of inadvertent detonation, the Savannah River Site and the Idaho
    National Laboratory performed explosive shipment inspections during peak traffic hours at
    populated main gates rather than at remote areas and/or during non-peak traffic hours. The
    inspection determined that excess combustible and non-combustible materials were being
    stored in explosives bunkers, incorrect bunker placards and fire symbols were posted on
    bunkers and buildings, and, excess explosives waste was not being disposed of timely. The
    report concluded that Department of Energy (Department) management had not focused the
    attention needed to ensure that the responsible facilities contractors properly implemented
    Department policies for handling and storing explosives, as required. Also, contractor
    officials charged with managing and safeguarding explosives had not ensured compliance
    with various aspects of the DOE Explosives Safety Manual.

•   Audit Report on The Department's Management of Non-Nuclear High Explosives (DOE/IG
    0730, June 2006). The audit was conducted at three defense laboratories and concluded that
    two defense laboratories did not maintain adequate control, accountability, and safety over
    their high explosives inventories. At Sandia National Laboratories, contractor officials did
    not always track the acquisition and use of explosives and could not account for significant
    quantities of explosive material and devices. In addition, both Sandia National Laboratories
    and the Los Alamos National Laboratory maintained large quantities of high explosives that
    were unlikely to be needed for current or future missions. Finally, both organizations were
    not regularly evaluating the stability and safety of the high explosive materials as required.
    The report indicated that a third defense contractor, Lawrence Livermore National
    Laboratory, effectively managed high explosives. However we noted that the scope of the
    audit did not include the accountability and control of explosives within the High Explosives
    Applications Facility.




______________________________________________________________________
Page 8                                                      Prior Reports
Appendix 3
                      MANAGEMENT COMMENTS




______________________________________________________________________
Page 9                                            Management Comments
Appendix 3 (continued)




______________________________________________________________________
Page 10                                           Management Comments
Appendix 3 (continued)




______________________________________________________________________
Page 11                                           Management Comments
                                                                        IG Report No. INS-O-13-06

                               CUSTOMER RESPONSE FORM


I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if applicable to you:

        1. What additional background information about the selection, scheduling, scope or
           procedures of the audit or inspection would have been helpful to the reader in
           understanding this report?

        2. What additional information related to findings and recommendations could have been
           included in the report to assist management in implementing corrective actions?

        3. What format, stylistic or organizational changes might have made this report's overall
           message more clear to the reader?

        4. What additional actions could the Office of Inspector General have taken on the issues
           discussed in this report that would have been helpful?

        5. Please include your name and telephone number so that we may contact you should we
           have any questions about your comments.


    Name                           Date

    Telephone                      Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
